WR-B-01-01




      AUDIT
     REPORT

                              RICHLAND OPERATIONS OFFICE
                                  FLEET MANAGEMENT




                                        JANUARY 2001




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                                            February 2, 2001


MEMORANDUM FOR THE MANAGERS, RICHLAND OPERATIONS OFFICE AND OFFICE OF
RIVER PROTECTION

FROM:                Lawrence R. Ackerly, Regional Manager (Signed)
                     Western Regional Audit Office
                     Office of Inspector General

SUBJECT:             INFORMATION: Audit Report on "Richland Operations Office Fleet Management"

BACKGROUND

                     The Department of Energy (DOE) Richland Operations Office and the Office
                     of River Protection (together referred to as "Richland") and the Hanford Site's
                     (Site) prime contractors had a fleet of 1,332 light and heavy motor vehicles as
                     of March 31, 2000. These vehicles were leased from the General Services
                     Administration (GSA). Fleet costs for Fiscal Year 2000 were approximately
                     $5.5 million.

              In a 1994 report, Audit of Light Vehicle Fleet Management in the Department of Energy,
              DOE/IG-0362, the Office of Inspector General reported that DOE was not managing its light
              vehicle fleet operations in the most economical and efficient manner. One of the four
              audited sites was Richland, where 64 percent of the 1993 vehicle fleet was utilized less than
              local mileage standards. Since the 1994 report was issued, the number of Site personnel has
              declined by 41 percent. The number of light vehicles, however, has declined by only 3
              percent. The objective of this audit was to determine if the size of Richland's vehicle fleet
              was appropriate to its use.

RESULTS OF AUDIT

              The size of Richland's vehicle fleet was not appropriate to its use, as 85 percent of the
              vehicles were used less than DOE's mileage standards. Further, 27 percent were used less
              than the local mileage standards. Richland had too many vehicles because it had not
              established and implemented controls required by DOE's Property Management Regulation.
              For example, Richland's Fleet Manager had not reviewed and approved the local standards
              or reassigned underused vehicles or returned such vehicles to GSA. We estimated that
              Richland could potentially reduce the number of vehicles by 559 and save about $1.7 million
              annually.

We recommended that Richland measure vehicle use against DOE standards. Alternatively, if
circumstances warranted using local standards, those standards should be established—based on factors
such as past performance and any special operating conditions—and reviewed and approved by the Fleet
Manager. We also recommended that underused vehicles be reassigned or returned to GSA.

MANAGEMENT REACTION

Management concurred with the overall conclusion and recommendations. Richland estimated that the fleet
could be reduced by about 400 vehicles, a reduction that would save about $1.2 million annually.
RICHLAND OPERATIONS OFFICE FLEET MANAGEMENT

TABLE OF
CONTENTS


                  Overview

                  Introduction and Objective ............................................... 1


                  Conclusions and Observations ........................................ 1


                  Vehicle Fleet Size Can Be Reduced


                  Details of Finding ............................................................ 2


                  Recommendations and Comments ................................. 5


                  Appendices


                  Scope and Methodology.................................................. 8


                  Estimate of Potential Fleet Reduction and
                  Annual Savings ............................................................. 10


                  Related Office of Inspector General Reports................. 12
Overview
INTRODUCTION      The Department of Energy (DOE) Richland Operations Office and the
AND OBJECTIVE     DOE Office of River Protection (together referred to as "Richland") and
                  the Hanford Site's (Site) prime contractors had a fleet of 1,332 light and
                  heavy motor vehicles as of March 31, 2000. These vehicles were
                  leased from the General Services Administration (GSA). The fleet was
                  intended to provide transportation for the Richland offices and prime
                  contractors at the Site. Fleet costs for Fiscal Year (FY) 2000 were
                  approximately $5.5 million.

                  In a December 1994 report, Audit of Light Vehicle Fleet Management in
                  the Department of Energy, DOE/IG-0362, the Office of Inspector
                  General (OIG) reported that DOE was not managing its light vehicle
                  fleet operations in the most economical and efficient manner. One site
                  included in that audit was Hanford and, with respect to that Site, the
                  report concluded that 64 percent of Richland's vehicle fleet was utilized
                  less than the mileage standards. The report contained recommendations
                  to ensure that operations offices monitor vehicle utilization consistent
                  with the current site vehicle utilization plan and take appropriate actions
                  to reduce the fleet to the minimum level necessary.

                  Since the 1994 report was issued, the number of Site personnel has
                  declined by 41 percent but the number of light vehicles has declined by
                  only 3 percent. The objective of this audit was to determine if the size
                  of Richland's vehicle fleet was appropriate to its use.

CONCLUSIONS AND   The size of Richland's vehicle fleet was not appropriate. Of the 1,332
OBSERVATIONS      vehicles, 85 percent were used less than DOE's mileage standards.
                  Further, 27 percent were used less than the Site's mileage standards.
                  Richland had too many vehicles because it had not established or
                  implemented controls required by DOE's Property Management
                  Regulation. For example, the Organizational Motor Equipment Fleet
                  Manager (Fleet Manager) had not returned underused vehicles to GSA
                  or reassigned them. We estimated that Richland could potentially
                  reduce the number of light vehicles by 559 and save about $1.7 million
                  annually.

                  In our opinion, the matters discussed in this report represent internal
                  control weaknesses that Richland should consider when preparing the
                  yearend assurance memorandum on internal controls.



                                                   _______(Signed)________
                                                   Office of Inspector General


Page 1                                                 Introduction and Objective/
                                                       Conclusions and Observations
Vehicle Fleet Size Can Be Reduced

Number Of Vehicles    Richland's vehicle fleet was too large. A comparison of vehicle use to
Could Be Reduced      mileage use standards showed that a significant number of vehicles
                      were used less than the standards. From this, we concluded that the
                      number of vehicles could be reduced.

                      We compared vehicle use to DOE mileage standards and found that 85
                      percent of the Site's vehicles were used less than these standards. The
                      table below provides supporting information on the number of vehicles
                      by type (sedans, light trucks, and heavy trucks) that were used less than
                      the DOE mileage standards. For example, 96 percent of the Site's
                      sedans were used less than the DOE standard of 12,000 miles per year.
                      Thus, only 4 percent of sedans met the standard. Similar statistics were
                      compiled for light trucks and heavy trucks.

                      Since Richland did not follow DOE standards, we also compared
                      vehicle use to "Site standards."1 Even when the lower standards were
                      used, the table shows that 27 percent of the vehicles were used less than
                      these standards.

                                        Vehicles Not Meeting Mileage Standards

                                       DOE Mileage Standards                  Site Mileage Standards

                                  Standard Number of Percent of Standard Number of Percent of
                          Vehicle (miles per Vehicles    Vehicles (miles per Vehicles Vehicles
                          Type    year)     not Meeting not Meeting year) not Meeting    not
                                             Standard    Standard            Standard Meeting
                                                                                      Standard
                          Sedans 12,000         145         96%     4,800       68       45%
                          Light     10,000      865         83%     4,000      257       25%
                          Heavy      7,500      118         84%     3,000       41       29%
                          Total               1,128          85%                      366           27%


                      To determine if there had been any improvement in vehicle use since
                      the OIG's 1994 audit report was issued, we made a third comparison.
                      The 1994 report showed that 64 percent of the light vehicles did not
                      meet the Site standards. We compared current use to the 1993 Site
                      standards and again found that 64 percent (766 of the 1,201 light
                      vehicles) were used less than these standards. Thus, in terms of the
                      1993 standards, Richland had not shown improvement.

                      __________________________
                      1
                       Richland and its contractors did not have one Site standard. Instead, contractors used
                      different amounts, some above and others below the amounts shown. An approved
                      local standard did not exist.


Page 2                                                                             Details of Finding
                       Richland and its contractors were aware that current vehicle use was
                       falling short of Site standards. Fluor Hanford, Inc.'s (Fluor) fleet
                       management had conducted four vehicle utilization reviews since the
                       last quarter of FY 1999. The most recent review showed that 20
                       vehicles assigned to Richland were under what Fluor termed a "low
                       usage standard" of 2,500 miles per year. Furthermore, Battelle-Pacific
                       Northwest National Laboratory's (Battelle) quarterly performance
                       reports for the second and third quarters of FY 2000 showed all 17 of
                       its sedans were rated "marginal" with less than 4,200 miles of use per
                       year.

Controls Over          According to DOE's Property Management Regulation (41 CFR subpart
Fleet Size             109-38.50, Utilization of Motor Vehicles), DOE's policy is to keep the
                       number of motor vehicles at the minimum needed to satisfy program
                       requirements. The regulation establishes average utilization standards
                       by type of vehicle. For example, the standard for sedans is 12,000
                       miles per year.

                       When operating circumstances prevent the DOE standards from being
                       met, the regulation requires that efficient local standards be established
                       and met. These local standards are to be established and documented
                       by the Fleet Manager. They should take into consideration such factors
                       as past performance, future requirements, geographical disbursement,
                       and special operating requirements. The Fleet Manager is responsible
                       for reviewing these standards at least annually and approving in writing
                       all proposed local standards. If vehicles fail to meet the established
                       standard, the Fleet Manager is required to promptly (1) reassign
                       underused vehicles, (2) dispose of them, or (3) obtain from the users
                       special justifications that document their continued requirement for the
                       vehicle and any proposed actions to improve use. Special justifications
                       require approval.

                       The regulation identifies controls and practices to be used for achieving
                       maximum economical use of vehicles. One control is the maintenance
                       of individual motor equipment use records, such as trip tickets or
                       vehicle logs, or hours of use, as appropriate, showing sufficiently
                       detailed information to evaluate appropriateness of assignment and
                       adequacy of use being made.

Controls Over Fleet    Richland had not established or implemented the required controls for
Size Not Established   fleet management. Specifically, the Fleet Manager had not reviewed
Or Implemented         and approved annually local standards. When audits and reviews
                       disclosed a significant number of vehicles being used less than
                       standards, Richland had not reassigned or disposed of the vehicles,
                       or obtained special justifications from the users and reviewed and

Page 3                                                                     Details of Finding
         approved those justifications. Individual vehicle use records were
         generally nonexistent. In addition, most vehicles were not covered by
         performance measures, which are intended to make contractors more
         accountable to DOE.

         The Site's local use standards had not been reviewed and approved by
         the Fleet Manager. The process employed by Richland and its
         contractors generally sidestepped these controls.

              •   Bechtel Hanford, Inc. (Bechtel), and Battelle, which together
                  had about 301 light vehicles, had proposed that 40 percent of
                  DOE's standard (or 4,800 miles per year) be used as the
                  performance measure for an "Excellent" rating for their light
                  vehicle use; 4,200 miles for a "Very Good" rating; and less
                  than 4,200 miles for a "Marginal" rating. Although Richland
                  agreed to use these amounts as performance measures, the
                  Fleet Manager did not review and approve the mileage
                  standard.

              •   Fluor, which was the contractor with the most vehicles, used a
                  5,000-miles standard to review mileage usage of its vehicles.
                  Fluor's vehicle use was not covered by a contractual
                  performance measure, and the Fleet Manager did not review
                  or approve the mileage standard.

         None of these local standards was supported by documentation that
         demonstrated how the standards took into consideration past
         performance, future requirements, geographical disbursement of
         vehicles, or other special operating requirements. There was no
         documentary evidence of a review or approval of them by the Fleet
         Manager. While the use of local standards at Richland might be
         appropriate, the basic problem was that none of the standards being
         used was supported. There was no documentation that demonstrated
         why local standards should be used or which specific standards were
         appropriate to the vehicle users' circumstances and would serve to
         minimize the number of vehicles.

         Not only were Site standards unsupported, they were being lowered
         over time. The 1994 audit report noted that Richland had a mileage
         standard of 9,500 miles for sedans but was in the process of lowering it
         to 9,300 miles. Since the 1994 report, the standard has been reduced to
         about half of what it had been. In 1994, the OIG reported that
         "Richland elected to reduce its local standards in 1993 rather than
         reduce fleet size, even though approximately 60 percent of the fleet


Page 4                                                      Details of Finding
                       did not meet the previous local use standards." Six years later, mileage
                       standards continue to go down while the number of vehicles remains
                       relatively constant. This gave the appearance of standards being set to
                       match use rather than being used to minimize the number of vehicles.

                       Richland also lacked policies and procedures to ensure that underused
                       vehicles were reassigned, returned to GSA, or retained by users based
                       on approved special justifications. Richland and contractor vehicle
                       managers told us that project managers were allowed to decide whether
                       a vehicle should be retained or returned. This process undermined the
                       usefulness of standards as a tool for controlling the number of vehicles.
                       Thus, Richland did not reduce its fleet after the OIG reported in 1994
                       that over 64 percent of Richland's vehicles did not meet then-current
                       standards. While the number of personnel has declined by 41 percent
                       (going from 17,000 to 10,000), the number of light vehicles has
                       declined by only 3 percent.

                       Finally, individual vehicle use records were generally nonexistent.
                       Richland and its contractors were not maintaining the type of
                       information needed to establish justifiable local use standards.
                       Although DOE's Property Management Regulation required that vehicle
                       logs or trip tickets be used and some contractors' policies recommended
                       that users maintain usage logs, sufficient in detail to evaluate
                       appropriateness of assignment, Site users did not usually maintain such
                       logs. Managers and vehicle users either said that they were unaware of
                       the utilization log requirement or that trip logs were unnecessary and
                       too time consuming.

Savings Available By   Based on the underused vehicles, Richland could reduce the number of
Reducing The Number    vehicles leased from GSA. We estimated that Richland could
Of Vehicles            potentially reduce the number of vehicles by 559 and save about $1.7
                       million annually in lease operation and maintenance costs. This
                       estimate was based on the DOE mileage standard since the Fleet
                       Manager has not reviewed and approved the use of local site standards.
                       See Appendix 2 for estimation details.

RECOMMENDATIONS        We recommend that the Managers, Richland Operations Office and
                       Office of River Protection direct the Fleet Manager to:

                            1. measure vehicle use against the DOE or local standards. If
                               local standards are to be used, they are to be established and
                               documented, taking into consideration past performance,
                               future requirements, geographical disbursement, and any
                               special operating requirements. The Fleet Manager should
                               review and approve these standards annually to ensure that
                               efficient standards are used;
Page 5                                                 Recommendations and Comments
                  2. incorporate vehicle standards into all contracts as performance
                     measures;

                  3. promptly reassign underused vehicles, return them to GSA, or
                     obtain a special justification from the user; and,

                  4. require vehicle users to maintain individual vehicle use
                     records, such as trip tickets or vehicle logs, or hours of use, as
                     appropriate, showing information adequate to evaluate the
                     appropriateness of assignment and use being made.

MANAGEMENT   Management concurred with the facts presented, the overall conclusion,
COMMENTS     and the report's recommendations. Richland estimated that the vehicle
             fleet could potentially be reduced by about 30 percent, or 400 vehicles,
             with potential cost savings of $1.2 million. Management stated that it
             would request a 30 percent fleet reduction from the contractors to occur
             in FY 2001.

             Recommendation 1. Management agreed that vehicle use standards
             should be established and documented. Richland and the Site
             contractors had used various mileage goals to evaluate contractor
             performance. During the December 12, 2000, exit conference Richland
             management further clarified its response by stating that the local
             standards will be established and documented by taking into
             consideration past performance, future requirements, geographical
             disbursement, and any special operating requirements. The Fleet
             Manager will also annually review and approve the established Site
             standards used by Richland and the Site contractors.

             Recommendation 2. Richland's Office of Site Services will study the
             feasibility of incorporating performance measures related to vehicle
             standards into the appropriate Site contracts. The estimated completion
             date for this action is September 2001.

             Recommendation 3. Richland and the Site contractors will promptly
             reassign or return to GSA underutilized vehicles throughout the Site or
             obtain a special justification from the user. As an example, Richland's
             August 2000 Vehicle Utilization Study targeted 18 (30 percent of 60)
             underused vehicles assigned to Richland personnel. Twelve of these
             targeted vehicles were returned to GSA and justifications were provided
             for the remainder of these vehicles to remain onsite. The Site
             contractor will be directed to reassign or return to the GSA
             underutilized vehicles based on the results of future utilization
             studies.


Page 6                                       Recommendations and Comments
                   Recommendation 4. Richland will direct the Site contractors to
                   maintain continuous vehicle use logs and direct users to provide
                   detailed information similar to that required by Richland vehicle users.
                   A document entitled Weekly Motor Pool Vehicle Use Log, which
                   requires the user to log the hours of use, mileage, destination, purpose
                   of trip, and vehicle identification, is already maintained by Richland for
                   all leased Richland vehicles.

AUDITOR COMMENTS   Management's comments and corrective action plans are responsive to
                   our recommendations.




Page 7                                             Recommendations and Comments
Appendix 1
SCOPE         The audit was performed from April 19, 2000 through October 25,
              2000, at the Richland Operations Office, the Office of River Protection,
              and at the following Site prime contractors: Fluor, the managing and
              integrating contractor for the Project Hanford Management Contract
              and its subcontractors; Bechtel, the environmental restoration
              contractor; Battelle, the management and operating contractor for the
              Pacific Northwest National Laboratory; and CH2M Hill Hanford, Inc.
              The scope included 1,201 light and 131 heavy vehicles leased from
              GSA as of March 31, 2000.

METHODOLOGY   To accomplish the audit objective, we:

                    •   analyzed vehicle mileage data from the GSA Inter-agency
                        Fleet Management System to annualize monthly vehicle
                        mileage usage;

                    •   electronically mailed questionnaires to users of randomly
                        selected light vehicles and heavy vehicles not meeting the
                        DOE mileage standard and interviewed those users;

                    •   interviewed Richland officials, contractor management, and
                        employees;

                    •   reviewed vehicle budgets and expenditures;

                    •   compared personnel staffing and fleet size in FY 1993 to
                        FY 2000;

                    •   determined whether vehicles had utilization trip logs;

                    •   compared Site vehicle mileage to DOE and Richland use
                        standards;

                    •   visited employee work sites, facilities, and offices and
                        obtained odometer readings; and,

                    •   reviewed contract provisions for Government Performance
                        and Results Act of 1993 performance measures related to the
                        audit objective.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Internal controls
              reviewed included regulations, DOE and contractor policies, and

Page 8                                                   Scope and Methodology
         procedures related to management of light and heavy vehicles leased
         from GSA. Because our review was limited, it would not necessarily
         have disclosed all internal control deficiencies that may have existed at
         the time of our audit. Since we relied on computer-processed data
         stored on the Inter-agency Fleet Management System, we assessed the
         reliability of the data on a test basis and found it to be reliable. Finally,
         we reviewed Richland's and the major Site contractors' vehicle
         utilization performance goals that were relevant to the audit objective.

         We held an exit conference with the Acting Director, Office of Site
         Services, Richland Operations Office, on December 12, 2000.




Page 9                                                 Scope and Methodology
Appendix 2

Estimate Of Potential   To estimate the potential reduction in the size of the fleet, we first
Fleet Reduction And     identified the number of vehicles that were underused when compared
Annual Savings          to the DOE mileage standards for the three major types of vehicles
                        (sedans, light trucks, and heavy trucks). For each underused vehicle,
                        we multiplied its average actual monthly mileage by 12 months in order
                        to annualize actual mileage. We then summed the annualized actual
                        mileage by type of vehicle. We subtracted this sum from the mileage
                        that the underused vehicles would have been driven to meet the DOE
                        mileage standard. For each type of vehicle, we then divided this
                        difference by the applicable DOE standard to estimate a potential
                        reduction in the number of vehicles per vehicle type. To estimate
                        potential savings, we multiplied the resulting number of vehicles by the
                        average yearly cost to lease the type of vehicle from GSA.

                        Using this methodology, we estimated that:

                             •   sedans could be reduced by 87 vehicles with annual savings of
                                 $180,525. 145 sedans were used less than 12,000 miles. For
                                 FY 2000, the sum of the annualized actual mileage for these
                                 vehicles was 691,380 miles. To meet the DOE standard, these
                                 vehicles would have been driven 1,740,000 miles (145 sedans
                                 X 12,000 miles). Dividing the difference of 1,048,620 miles
                                 by 12,000 miles equates to an estimated reduction of 87
                                 vehicles. Multiplying 87 vehicles times the yearly cost of
                                 $2,075 to lease a sedan from GSA results in $180,525 of
                                 savings;

                             •   light trucks could be reduced by 409, which would save
                                 $1,126,795 annually. 865 light trucks were used less than
                                 10,000 miles. For FY 2000, the sum of the annualized actual
                                 mileage for these vehicles was 4,559,316 miles. To meet the
                                 DOE standard, these vehicles would have been driven
                                 8,650,000 (865 light trucks X 10,000 miles). Dividing the
                                 difference of 4,090,684 miles by 10,000 miles equates to an
                                 estimated reduction of 409 vehicles. Multiplying 409 vehicles
                                 times the average yearly cost of $2,755 to lease a light truck
                                 from GSA results in $1,126,795 of savings; and,

                             •   heavy trucks could be reduced by 63, which would save
                                 $353,682 annually. 118 heavy trucks were used less than
                                 7,500 miles. For FY 2000, the sum of the annualized actual
                                 mileage for these vehicles was 414,156 miles. To meet the
                                 DOE standard, these vehicles would have been driven 885,000
                                 miles (118 heavy trucks X 7,500 miles). Dividing the


Page 10                                                    Estimate of Potential Fleet
                                                           Reduction and Annual Savings
                 difference of 470,844 miles by 7,500 miles equates to an
                 estimated reduction of 63 vehicles. Multiplying 63 vehicles
                 times the average yearly cost of $5,614 to lease a heavy truck
                 from GSA results in $353,682 of savings.

          Finally, we estimated a total vehicle reduction of 559 by adding the
          reductions by type of vehicle (that is, 87 sedans + 409 light trucks + 63
          heavy trucks) and total annual savings of $1,661,002 by adding the
          savings by type of vehicle ($180,525 for sedans + $1,126,795 for light
          trucks + $353,682 for heavy trucks).




Page 11                                       Estimate of Potential Fleet
                                              Reduction and Annual Savings
Appendix 3

                    RELATED OFFICE OF INSPECTOR GENERAL REPORTS



Vehicle Use at Lawrence Livermore National Laboratory, WR-B-00-07, September 2000. Not one of 31
randomly selected vehicles used primarily for transportation of lab employees and light materials on the
one-square-mile lab site met the laboratory's trips-per-day use standard. The vehicle fleet was larger than
necessary because the Oakland Operations Office allowed the lab to count and report trips based on
mileage rather than the actual number of trips taken.


Vehicle Fleet Management at the Idaho National Engineering and Environmental Laboratory,
WR-B-99-02, March 1999. The OIG reported that, in FY 1997, 45 percent of the light vehicles at the
Idaho Operations Office and its contractor were underused. Light vehicles were underused because the
operations office had not reviewed individual vehicle use against mileage standards. As a result, the light
vehicles were used significantly less than the mileage standards and the light vehicle fleet was larger than
necessary.


Audit of Light Vehicle Fleet Management in the Department of Energy, DOE/IG-0362, December 1994.
The OIG reported that DOE needed to improve the management of its light vehicle fleet. Vehicle use
standards established by operations offices were generally well below the DOE guidelines and there was
little or no documentation available to support management decisions to use the lower standards. Even
when compared to the lower use standards, over 64 percent of Richland's fleet was underutilized in
FY 1993.


Equipment Use and Repair at the Hanford Site, WR-BC-93-1, March 1993. The OIG reported that
Richland had not taken steps to identify and reduce underused equipment. Heavy-duty trucks were used
less than 50 percent of the suggested property management use standards. Richland and its contractor
were unaware of the low usage because equipment use data was incomplete.




Page 12                                                 Related Office of Inspector General Reports
                                                                       Report No.:WR-B-01-01


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov


       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
